App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MONICA ORTIZ, individually No. 18-55107
and as co-successor-in-interest D.C. No.
to Decedent Christian Pena; 5:16-cv-01384-JGB-KS
NORMA PENA, individually,
MEMORANDUM*
Plaintiffs-Appellees,
(Filed Jul. 17, 2019)
v.
CESAR VIZCARRA, individually,
and in his official capacity as
an officer for the City of Rialto
Police Department; JORGE
BRAMBILA, individually,
and in his official capacity
as an officer for the City of
Rialto Police Department,
Defendants-Appellants,
and
CITY OF RIALTO, Police
Department; DOES, 1-10,
inclusive, individually, and
in their capacities as law
enforcement agents and/
or personnel for the City of
Rialto Police Department,
Defendants.

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
Appeal from the United States District Court
for the Central District of California
Jesus G. Bernal, District Judge, Presiding
Argued and Submitted June 11, 2019
Pasadena, California
Before: FERNANDEZ, WARDLAW, and BYBEE, Circuit Judges.
City of Rialto police officers Cesar Vizcarra and
Jorge Brambila appeal the district court’s partial denial of their motion for summary judgment on the
basis of qualified immunity. We dismiss for lack of appellate jurisdiction.
1. “We have jurisdiction to determine our jurisdiction.” United States v. Decinces, 808 F.3d 785, 788
(9th Cir. 2015). Here, the district court denied the officers’ motion on the excessive force and unlawful seizure
claims because it found genuine disputes of material
fact as to whether the officers were entitled to qualified
immunity. In the qualified immunity context, “[a]ny
decision by the district court ‘that the parties’ evidence
presents genuine issues of material fact is categorically unreviewable on interlocutory appeal.’ ” George v.
Morris, 736 F.3d 829, 834 (9th Cir. 2013); see also Johnson v. Jones, 515 U.S. 304, 313 (1995). “Where there are
disputed issues of material fact, our review is limited
to whether the defendant would be entitled to qualified
immunity as a matter of law, assuming all factual disputes are resolved, and all reasonable inferences are
drawn, in plaintiff ’s favor.” Karl v. City of Mountlake
Terrace, 678 F.3d 1062, 1068 (9th Cir. 2012); see also

App. 3
Kisela v. Hughes, 138 S. Ct. 1148, 1150-51 (2018) (per
curiam).
On appeal, the officers rely on their version of the
facts to argue that the district court erred because
Monica Ortiz1 could not prove at trial that the officers
unreasonably used deadly force in violation of the
Fourth Amendment. The officers’ argument thus fails
to present the facts in the light most favorable to Ortiz,
instead merely raising a “question of ‘evidence sufficiency,’ i.e., which facts a party may, or may not, be able
to prove at trial.” Foster v. City of Indio, 908 F.3d 1204,
1210 (9th Cir. 2018) (per curiam). “But this sort of ‘evidence sufficiency’ claim does not raise a legal question”
we can review. Id. at 1213. Accordingly, we dismiss the
officers’ appeal for lack of jurisdiction, without deciding at this interlocutory stage whether the officers are
entitled to qualified immunity.
2. Because the district court denied summary
judgment on plaintiff ’s parallel state law claims based
on the same disputes of material fact as the excessive
force and unlawful seizure claims, we likewise lack jurisdiction to review the officers’ appeal as to those claims.2
DISMISSED.

1

Plaintiff Norma Peña did not appeal the district court’s
grant of summary judgment in favor of the officers on her sole
claim and therefore no longer remains a party to this case.
2
The dissent recites the inferences its author draws from
video recordings of the incident, but unlike in Scott v. Harris, 550
U.S. 372, 380-81 (2007), Ortiz’s version of the facts is neither “blatantly contradicted” nor “utterly discredited” by video evidence.

App. 4
FERNANDEZ, Circuit Judge, dissenting:
I agree with the legal principles set forth by the
majority. However, the video recording of the incident
shows beyond peradventure1 that in a period no longer
than forty seconds an officer tried to subdue a belligerent man in close quarters while backing away from
him and tasing him three times. Still, the man managed to arm himself with a knife and come even closer
to the officer, whereupon the officer shot him twice in
rapid succession. Given the undeniable and indisputable facts, even if there was a Fourth Amendment violation, I do not believe that this could reasonably be seen
as “an obvious case in which any competent officer
would have known that shooting [the man] . . . would
violate the Fourth Amendment.” Kisela v. Hughes, ___
U.S. ___, ___, 138 S. Ct. 1148, 1153, 200 L. Ed. 2d 449
(2018) (per curiam); see also City of Escondido v. Emmons, ___ U.S. ___, ___, 139 S. Ct. 500, 504, 202
L. Ed. 2d 455 (2019) (per curiam). Thus, because the
officers must be entitled to qualified immunity, I respectfully dissent.

1

Scott v. Harris, 550 U.S. 372, 378-81, 127 S. Ct. 1769, 177576, 167 L. Ed. 2d 686 (2007).

App. 5
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case EDCV 16-1384 JGB
No. (KSx)

Date January 18, 2018

Title Monica Ortiz, et al. v. City of Rialto, et al.
===========================================================================================
Present:
The Honorable

JESUS G. BERNAL, UNITED
STATES DISTRICT JUDGE

MAYNOR GALVEZ
Deputy Clerk

Not Reported
Court Reporter

Attorney(s) Present
for Plaintiff(s):

Attorney(s) Present for
Defendant(s):

None Present

None Present

Proceedings: Order (1) GRANTING in Part and
DENYING in Part Defendants’
Motion for Summary Judgment
(Dkt. No. 35)
Before the Court is Defendants City of Rialto, and
Rialto police officers Cesar Vizcarra, and Rialto police
officer Jorge Brambila (collectively, “Defendants”) Motion for summary judgment against Plaintiffs Monica
Ortiz and Norma Pena. On January 8, 2018, the Court
held a hearing on the Motion. After considering the
oral argument and papers filed in support of, and in
opposition to, the Motion, the Court GRANTS in part
and DENIES in part the Motion.

App. 6
I.

BACKGROUND

This case arises out of the shooting of Decedent
Christian Pena by Rialto police officers Vizcarra and
Brambila (“Responding Officers”) during their response to a domestic violence dispatch. Plaintiffs Monica Ortiz, Decedent’s surviving spouse, and Norma
Pena, Decedent’s mother, filed their First Amended
Complaint against Defendants on December 9, 2016.
(“FAC,” Dkt. No. 17.)
Plaintiffs allege: (1) a § 1983 claim for unlawful
seizure in violation of the Fourth Amendment, (2) a
§1983 claim for excessive force in violation of the
Fourth Amendment, (3) a § 1983 claim for wrongful
death, (4) a § 1983 claim for violation of the Fourteenth
Amendment due process clause for interference in a familial relationship, (5) a § 1983 claim against the City
of Riverside for an unconstitutional custom, policy or
practice, (6) a wrongful death negligence claim under
California Civil Procedure §§ 377.60 and 377.61, (7) a
wrongful death battery claim, (8) violation of California Civil Code § 52.1, (9) violation of California Civil
Code § 51.7, (10) intentional infliction of emotional distress, and (11) negligent infliction of emotional distress. (See FAC.)
On December 8, 2017, Defendants moved for summary judgment. (“Motion,” Dkt. No. 35.) In support of
their Motion, Defendants also filed:
•

Statement of Undisputed Facts (“DSUF,”
Dkt. No. 35-1); and

App. 7
•

Declaration of Bruce Praet, and 6 accompanying exhibits (Dkt. Nos. 35-2-8; 36).

On December 18, 2017, Plaintiffs filed their opposing motion. (“Opposition,” Dkt. No. 37.) In support of
their Opposition, Plaintiffs also filed:
•

Statement of Additional Material Facts
(“PAMF,” Dkt. No. 38);

•

Evidentiary Objections (Dkt. No. 39.);

•

Declaration of Hang Le, and 11 accompanying exhibits (Dkt. No. 40, Exs. 1, 4, 811; Dkt. No. 42, Exs. 2-3, 5-7) including
footage from Responding Officers’ body
cameras (“Vizcarra Camera,” Dkt. No. 42,
Ex. 3; “Brambila Camera,” Dkt. No. 42,
Ex. 7);

•

Declaration of Roger Clark, and 1 accompanying exhibit (Dkt. No. 41; Ex. 12)

Defendants replied on December 27, 2017. (“Reply,
Dkt. No. 44.) Along with their Reply, Defendants filed
a Reply to Plaintiff ’s Evidentiary Objections (Dkt. No.
44-1) and a Reply to Plaintiff ’s Statement of Additional Material Facts (Dkt. No. 44-2).
II.

FACTS

Except as noted, the following material facts are
sufficiently supported by admissible evidence and are
uncontroverted.1 They are “admitted to exist without
1

The Court considers the parties’ objections where necessary. All other objections are OVERRULED.

App. 8
controversy” for purposes of the Motion. See Fed. R.
Civ. P. 56(e)(2); L.R. 56-3. Where videotape of the
events exists, the court should view the facts “in the
light depicted by the videotape.” Scott v. Harris, 550
U.S. 372, 380 (2007).
A. October 2, 2015 Dispatch
On October 2, 2015, Officer Vizcarra and Officer
Brambila received a call of domestic disturbance.
(PAMF ¶ 36.) Vizcarra responded as a backing officer
for Brambila. (PAMF ¶ 37.) Responding Officers arrived on scene at the same time. (PAMF ¶39.) Responding Officers made contact with a woman, later
identified as Plaintiff Ortiz, at apartment 7C. (PAMF
¶ 41.) Brambila spoke to Ms. Ortiz. (PAMF ¶ 43.)
Brambila recalls Ortiz’s hair being all over the place
and that she looked sad, though her hair was actually
in a neat bun. (PAMF ¶¶ 46, 47.) Brambila never saw
bruising or injuries on Ortiz or that her clothing was
ripped. (PAMF ¶¶48, 49). Ortiz led Responding Officers
upstairs to her residence so that [sic] could contact her
boyfriend or husband, later identified as her husband,
Christian Pena, the Decedent. (PAMF ¶ 50.)
The landing between the stairs and the apartment
door is approximately eight to ten feet long. (PAMF
¶ 51.) Ortiz opened the door to the apartment and said,
“The cops are here.” (PAMF ¶ 52.) Vizcarra then
stepped forward. (Id.) Vizcarra did not see signs of a
struggle or that the apartment had been ransacked.

App. 9
(PAMF ¶53.) Neither officer had ever seen Decedent
before and did not know him. (PAMF ¶ 54.)
Decedent stood up from the couch and put his
hands in his pockets. (PAMF ¶ 58.) Brambila noted Decedent appeared “really hyped up” but was not sure
whether he was under the influence of some type of
drug. (PAMF ¶ 57.) Decedent challenged Responding
Officers to “come on” as he clenched his fists. (DSUF
¶ 3.) Decedent refused to comply with Responding Officers’ orders to “get back” and “show your hands.”
(DSUF ¶ 2.) Vizcarra initially drew his gun then put
his gun away, pulling out his Taser. (PAMF ¶¶ 59, 61,
63.)
Vizcarra deployed his Taser, striking Decedent.
(PAMF ¶ 65.) Vizcaraa did not give a verbal warning
that he was going to deploy the Taser. (PAMF ¶ 66.)
Decedent stiffened, falling to the ground. (PAMF ¶ 69.)
Decedent began “squirreling” around. (PAMF ¶ 70.)
Brambila pushed down on Decedent’s back while giving him commands to get on his back. (PAMF ¶ 71.)
Vizcarra then activated the Taser a second time.
(PAMF ¶ 73.) Decedent continued to writhe on the
ground. (PAMF ¶ 76.) A knife fell from Decedent’s
pocket onto the floor. (PAMF ¶ 78.) Vizcarra then activated the Taser a third time, while Decedent was on
the floor. (PAMF ¶ 79.) Decedent was tased for a total
of 15 seconds, and the time elapsed between the first
Taser cycle beginning and the third Taser cycle ending
was 21 seconds. (PAMF ¶¶ 81, 84.)

App. 10
Vizcarra then transitioned to his gun. (PAMF
¶ 87.) Brambila had his Taser in one hand and his gun
in the other hand. (PAMF ¶88.) Decedent scooted towards Vizcarra. (DSUF ¶ 5.) Vizcarra stepped back
onto the threshold of the door. (PAMF ¶ 91.) Decedent
grasped the knife and appeared to raise it, with the
blade facing down, towards Vizcarra, who was standing less than five feet away. (DSUF ¶ 6; Vizcarra Cam.
4:46-4:48.) Decedent only had the knife in his hand for
approximately one second. (PAMF ¶ 1001 [sic].) Vizcarra fired one shot, which struck Decedent. He did not
give a warning that he was going to shoot before firing.
(DSUF ¶ 7; PAMF ¶ 95.) At the moment of the first
shot, Decedent was sitting on the ground and Vizcarra
was standing up. (PAMF ¶ 101.) After the first shot,
Decedent’s body fell back while his arms and legs
flailed. (PAMF ¶ 104.) Decedent began to roll back towards Vizcarra. (Vizcarra Cam. 4:49-4:50.) Within less
than two seconds, Vizcarra fired a second shot subsequently shouting, “He’s got the knife.” (Vizcarra Cam.
4:50-4:52.) Vizcarra never saw the blade of the knife
pointed upwards. (PAMF ¶ 97.) The first gunshot
struck Decedent in the left shoulder, and the second
gunshot struck Decedent in the abdomen. (PAMF
¶¶ 115, 117.) The gunshot to the abdomen was the fatal shot. (PAMF ¶ 118.)
After she went downstairs, Ortiz heard a gunshot.
(PAMF ¶ 119.) She heard a total of one or two gunshots. (PAMF ¶ 120.) Ortiz later saw Decedent’s body
being taken away in a Ziploc bag, and saw his feet and
head hanging out. (PAMF ¶ 121.)

App. 11
B. Police Training and Policies
Officers at the Rialto Police Department are
trained regarding use of the Taser by a sergeant who
has been certified by Taser International. (PAMF
¶ 124.) Officers are trained that they should never hold
both a firearm and a Taser device at the same time.
(PAMF ¶ 125.) They are instructed they should give a
verbal warning before discharging the Taser when feasible. (PAMF ¶ 126.) Officers are trained that each 5second Taser cycle is a “window of opportunity” to move
in, control and handcuff a suspect. (PAMF ¶ 128.) They
may go hands-on with a suspect during a Taser cycle
so long as they do not place their hands on or between
the Taser probes. (PAMF ¶ 127.) However, Vizcarra
claimed they were trained not to go hands-on with a
suspect during the five-second Taser cycle. (PAMF
¶ 85.) Moreover, officers are trained that while a Taser
cycle is going a subject will have difficulty responding
to police commands to move in a certain direction.
(PAMF ¶ 133.)
Officers are trained that a knife is a contact
weapon and officers should try to keep distance from a
person with a knife. (PAMF ¶ 138.) They are also
trained that they are responsible for every shot and
must reassess the situation after every shot. (PAMF
¶ 141.) Officers are trained to give a warning they are
going to use deadly force when feasible, and that
deadly force is the highest level of force. (PAMF ¶¶ 143,
135.)

App. 12
III.

LEGAL STANDARD

Summary judgment is appropriate when there is
no genuine issue as to any material fact and the moving party is entitled to judgment as a matter of law.
Fed. R. Civ. P. 56(a). The moving party has the initial
burden of identifying the elements of the claim or defense and evidence that it believes demonstrates the
absence of an issue of material fact. See Celotex Corp.
v. Catrett, 477 U.S. 317, 323 (1986). Where the nonmoving party bears the burden of proof at trial, the
moving party need only prove there is an absence of
evidence to support the nonmoving party’s case. In re
Oracle Corp. Sec. Litig., 627 F.3d 376, 387 (9th Cir.
2010). The moving party must show that “under the
governing law, there can be but one reasonable conclusion as to the verdict.” Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 250 (1986).
If the moving party has sustained its burden, the
nonmoving party must then show that there is a genuine issue of material fact that must be resolved at
trial. Celotex, 477 U.S. at 324. The non-moving party
must make an affirmative showing on all matters
placed at issue by the motion as to which it has the
burden of proof at trial. Celotex, 477 U.S. at 322; Anderson, 477 U.S. at 252. “This burden is not a light one.
The non-moving party must show more than the mere
existence of a scintilla of evidence.” In re Oracle Corp.
Sec. Litig., 627 F.3d at 387 (citing Anderson, 477 U.S.
at 252).

App. 13
A genuine issue of material fact exists “if the evidence is such that a reasonable jury could return a verdict for the non-moving party.” Anderson, 477 U.S. at
248. When deciding a motion for summary judgment,
the court construes the evidence in the light most favorable to the nonmoving party. Barlow v. Ground, 943
F.2d 1132, 1135 (9th Cir. 1991). Thus, summary judgment for the moving party is proper when a “rational
trier of fact” would not be able to find for the nonmoving party. Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986).
IV.

FEDERAL CLAIMS

Plaintiffs allege five claims under Title 42 U.S.C.
§ 1983. (See FAC.) Section 1983 provides a cause of action against “[e]very person who, under color of any
statute . . . of any State . . . subjects, or causes to be
subjected, any citizen . . . to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws. . . .” 42 U.S.C. § 1983. The purpose of
§ 1983 is to deter state actors from using the “badge of
their authority” to deprive individuals of their federally guaranteed rights and to provide relief if such conduct occurs. Wyatt v. Cole, 504 U.S. 158, 162 (1992).
“The doctrine of qualified immunity protects government officials ‘from liability for civil damages insofar as their conduct does not violate clearly established
statutory or constitutional rights of which a reasonable
person would have known.’ ” Pearson v. Callahan, 555
U.S. 223, 231 (2009) (quoting Harlow v. Fitzgerald, 457

App. 14
U.S. 800, 818 (1982)). An officer will be denied qualified
immunity if (1) taking the alleged facts in the light
most favorable to the party asserting injury, the officer
committed a constitutional violation, and (2) the officer’s specific conduct violated “clearly established”
federal law at the time of the alleged misconduct such
that a reasonable officer would have understood the
conduct to be unlawful. Torres v. City of Madera, 648
F.3d 1119, 1123 (9th Cir. 2011) (citing Saucier v. Katz,
533 U.S. 194, 201-02 (2001)).
A. Excessive Force
1. Constitutional Violation
Plaintiff Ortiz alleges Responding Officers subjected Decedent to excessive force by shooting and killing him without lawful justification. (FAC ¶ 28.) An
objectively unreasonable use of force is constitutionally excessive and violates the Fourth Amendment.
Graham v. Connor, 490 U.S. 386, 394-96 (1989). The objective reasonableness inquiry is determined by an assessment of the totality of circumstances. Id. at 397.
The court must balance “the nature of quality of the
intrusion on the individual’s Fourth Amendment interests against the importance of the governmental interests alleged to justify the intrusion.” Scott v. Harris,
550 U.S. 372, 383 (2007).
To determine the strength of the government’s interest in the force used, the court considers the severity
of the crime at issue, whether the suspect posed an immediate threat to the safety of the officers or others,

App. 15
and whether the suspect was actively resisting arrest
or attempting to evade arrest by flight. Id. at 396. The
court also considers whether the suspect posted an immediate threat to the safety of the officers or others.
George v. Morris, 736 F.3d 829, 838 (9th Cir. 2013).
Other relevant factors may include “the availability of
less intrusive force, whether proper warnings were
given, and whether it should have been apparent to the
officer that the subject of the force used was mentally
disturbed.” Hughes v. Kisela, 841 F.3d 1081, 1085 (9th
Cir. 2016). However, officers “need not employ the least
intrusive means available” provided they act “within
the range of reasonable conduct.” Id.
Here, Vizcarra deployed his Taser three times, before shooting Decedent twice. Vizcarra’s use of deadly
force can be deemed objectively reasonable only if he
had probable cause to believe that Decedent posed a
threat of serious physical harm to himself or others.
Brosseau v. Haugen, 543 U.S. 194, 197-98 (2004). The
court must consider “exactly what was happening
when the shot was fired.” Gonzalez v. City of Anaheim,
747 F.3d 789, 794 (9th Cir. 2014.) In this case, the body
camera footage shows the knife was under Decedent’s
body after he scooted towards Vizcarra. It is undisputed Decedent was within five feet of Vizcarra, and he
held the knife for approximately one second prior to
Vizcarra’s initial shot. The mere fact that a suspect
possesses a weapon does not justify deadly force. See,
e.g., Hayes v. Cty. of San Diego, 736 F.3d 1223, 1233
(9th Cir. 2013) (suspect’s “unexpected possession of the
knife alone” was not sufficient reason for the officers to

App. 16
employ deadly force); Glenn v. Washingotn [sic] Cty.,
673 F.3d 864, 872 (9th Cir. 2011) (suspect’s possession
of a knife was not dispositive of immediate-threat issue).
Conversely, threatening an officer with a weapon
does justify the use of deadly force. See, e.g., Smith v.
City of Hemet, 394 F.3d 689, 704 (9th Cir. 2005) (en
Banc) (recognizing that where a suspect threatens an
officer with a knife or gun, the officer is justified in using deadly force); Reynolds v. Cty of San Diego, 84 F.3d
1162, 1168 (9th Cir. 1996) (holding deadly force reasonable where suspect, who was behaving erratically,
swung a knife at an officer). The body camera footage
appears to show Decedent’s split second attempt to
raise the knife towards Vizcarra before being shot. Cf.
Hughes, 862 F.3d at 780 (finding there was not an immediate threat to the officer where the suspect “did not
raise the knife and did not make any aggressive or
threating actions.”) Prior to the shooting, Responding
Officers had commanded Decedent to “get back” and
get on his back. Vizcarra had deployed his Taser three
times, but Decedent had still been able to scoot towards the officer while in a seated position, requiring
Vizcarra to step back onto the threshold of the door.
Therefore, at the time of Vizcarra’s initial shot Decedent [sic], Decedent had been tased multiple times after telling the officers to “come on” with clenched fists,
moved closer to Vizcarra, and attempted to raise a
knife in his direction. Plaintiffs argue the knife was
never pointed directly at Vizcarra. (Opp’n at 13.) Vizcarra was not required to wait until Decedent had

App. 17
pointed the weapon directly at him before deploying
deadly force. See George, 736 F.3d at 838 (“If the person
is armed . . . a furtive movement, harrowing gesture,
or serious verbal threat might create an immediate
threat.”). However, Plaintiffs argue that Decedent was
unable to comply with commands due to the effects of
being tased.
Plaintiffs also argue Vizcarra’s second shot was
particularly egregious given Decedent was thrown
backwards from the initial gunshot and had nothing in
either hand. (Opp’n at 13.) Rialto police are trained to
reassess the situation after each shot. The body camera footage does show Decedent rolling backwards and
flailing after being shot. Nonetheless, Decedent’s body
then turned back towards Vizcarra, which is when Vizcarra fired off a second shot. Viewing the facts in a light
most favorable to Plaintiffs, Decedent’s movement towards Vizcarra could have been involuntarily flailing
as a result of the first gunshot, rather than a threatening motion. “The calculus of reasonableness must embody allowance for the fact that police officers are often
forced to make split-second judgments – in circumstances that are tense, uncertain, and rapidly evolving
– about the amount of force that is necessary in a particular situation.” Garner, 471 U.S. at 396-397. Defendants further argue Vizcarra was not required to stop
shooting until the threat had ended, citing Plumhoff v.
Rickard, 134 S.Ct. 2012, 2022 (2014). However, a suspect, once on the ground and wounded, may no longer
pose a threat and a reasonable officer would reassess
the situation rather than continue shooting. See id.

App. 18
Decedent continued to roll on the ground, but whether
he posed a threat or was reaching for the knife is a dispute of fact to be resolved by a jury. Thus, a reasonable
jury could find Decedent no longer posed a threat after
the first gunshot, and the second shot and thus the totality of deadly force used was excessive.
The severity of the crime weighs in Plaintiffs’ favor. Responding Officers were dispatched to the apartment complex in response to a 911 domestic disturbance call. The Ninth Circuit has recognized that
domestic violence calls are “particularly dangerous” for
police officers, Mattos v. Agarano, 661 F.3d 433, 450
(9th Cir. 2011). However, the concern for officer safety
is “less salient ‘when the domestic dispute is seemingly
over by the time the officers being [sic] their investigation.’ ” George, 736 F.3d at 839 (quoting Mattos, 661
F.3d at 450). When Responding Officers arrived, Plaintiff Pena had already left her apartment, while Decedent remained inside, outside of her vicinity. Once
Responding Officers entered the apartment, Plaintiff
Pena remained outside the doorway, with Vizcarra between her and Decedent. Viewing the facts in the light
most favorable to Plaintiffs, Pena was no longer in
jeopardy when Responding Officers arrived.
Next, the Court considers whether Decedent was
actively resisting arrest or evading arrest by flight.
Graham, 490 U.S. at 396. Neither party argues Decedent was attempting to flee before Responding Officers
shot him. However, whether he was actively resisting
arrest is more complicated. When Responding Officers
first arrived, Decedent brought his fists up and said

App. 19
“come on,” before being tased. Then, Decedent did not
comply with Responding Officers’ orders to get back or
get on his back, which Plaintiffs argue was due to the
Taser’s effects. At one point, Decedent momentarily
places his hands behind his back, but then continues
to move erratically on the ground. A jury could conclude he was unable to comply with Responding Officers commands due to the Taser effects. Up until that
point, Decedent’s conduct was arguably less than active resistance. A closer call may be when Decedent
scooted across the ground towards Vizcarra and attempted to raise the knife, but a jury could find his bodily movements were a response to the Taser effects.
Throughout the encounter, Responding Officers
yelled at Decedent to “get back” and “get on the wall.”
Rialto police officers are trained to give warnings,
when feasible, before using a Taser or employing
deadly force. Here, neither officer warned Decedent
they would use the Taser, even though they had the opportunity to do so. However, the split-second timing between Decedent scooting towards Vizcarra and
beginning to raise the knife likely made a warning infeasible.
Finally, the court considers the availability of less
intrusive options before resorting to deadly force. Responding Officers utilized three cycles of the Taser,
prior to Vizcarra firing his gun. Decedent continued to
flail on the ground throughout the Taser cycles, but
was still able to scoot towards Vizcarra. Once he came
within five feet of Vizcarra, Vizcarra used his gun.
Plaintiffs’ expert opined that Vizcarra had several

App. 20
other less intrusive options available, such as stepping
back, using his Taser again, telling Decedent to drop
the knife, warning Decedent he was going to use deadly
force, and telling Brambila to discharge his Taser.2
(Clark Decl. ¶ 10(g).) In light of this expert testimony,
a reasonable jury could conclude alternative techniques were available to subdue Decedent rather than
the use of deadly force.
The Ninth Circuit has noted that “[b]ecause [the
question of excessive force] nearly always requires a
jury to sift through disputed factual contentions, and
to draw inferences therefrom, we have held on many
occasions that summary judgment or judgment as a
matter of law in excessive force cases should be
granted sparingly.” Santos v. Gates, 287 F.3d 846, 853
(9th Cir. 2002). Here, material questions of fact, such
as the severity of the threat particularly prior to the
second gunshot, the adequacy of warnings, and the potential for less intrusive means remain in dispute. In
addition, Decedent may not have been actively resisting arrest due to the Taser effects. Therefore, Responding Officers are not entitled to summary judgment

2

Defendants object on grounds that Plaintiffs’ expert, Roger
Clark, is unqualified and his declaration is “pure speculation.”
(Dkt. No. 44-1 at 8.) The Court reviewed Roger Clark’s professional experience and training, which includes almost three decades in the Los Angeles County Sheriff’s Department and a
member of its training staff, and finds him to be an appropriately
qualified expert on police procedures and practices. Defendants’
objection is OVERRULED.

App. 21
with respect to the reasonableness of their actions, and
a reasonable jury could find they used excessive force.
2.

Clearly Established Law

The Court concludes a reasonable jury could find
in Plaintiffs’ favor that Responding Officers acted with
excessive force. Therefore, the Court considers whether
the right at issue was clearly established such that a
reasonable officer would have understood his actions
were unlawful. The clearly established law must be
“particularized” to the facts of the case. White v. Pauly,
137 S.Ct. 548, 552 (2017). Yet, even where there is no
federal case analyzing a similar set of facts, a plaintiff
may still demonstrate that a reasonable officer would
have known the force he used was excessive. Deorle v.
Rutherford, 272 F.3d 1272, 1285 (9th Cir. 2001).
If a jury determines that Decedent “no longer
posed an immediate threat, any deadly force used after
that time violated long-settled Fourth Amendment
law.” Zion v. Cty. of Orange, 874 F.3d 1072, 1076 (9th
Cir. 2017). The Ninth Circuit has clearly stated “law
enforcement officers may not shoot to kill unless, at a
minimum, the suspect presents an immediate threat
to the officer or others, or is fleeting [sic] and his escape
will result in a serious threat of injury to persons.” Harris v. Roderick, 126 F.3d 1189, 1201 (9th Cir. 1997). The
Ninth Circuit has also held that an officer can violate
the Fourth Amendment by using continued force
against a suspect who has been brought to the ground.
See Davis v. City of Las Vegas, 478 F.3d 1048, 1053 (9th

App. 22
Cir. 2007) (holding an officer violated the Fourth
Amendment by punching a handcuffed suspect in the
face while he lay face-down on the ground); Drummond
v. City of Anaheim, 343 F.3d 1052, 1057-58 (9th Cir.
2003) (holding officers used excessive force by sitting
on a prone suspect’s back, asphyxiating him). A reasonable jury could find that Decedent was shot the second
time, while on his back and hands emptied, when he
no longer posed an immediate threat to Responding
Officers. If so, Defendants are not entitled to qualified
immunity as they would have been on notice their use
of deadly force was clearly unlawful.
Moreover, Plaintiffs cite numerous cases that
would have put Responding Officers on notice in October 2015 that deadly force could not be used when Decedent no longer posed a threat. See, e.g., Glenn, 673
F.3d at 878-880 (holding a jury could determine the officers’ use of deadly force was unreasonable where decedent was holding a pocket knife to his own neck but
was not threatening anyone and had not moved until
being struck by beanbag rounds, then prompting the
police to open fire); George, 736 F.3d at 838-839 (holding a jury could find the deputies’ use of force was excessive where they shot the decedent who held a gun
in his left hand with the barrel pointed down and did
not take other threatening actions). In Hayes, officers
responded to a domestic disturbance call and were advised the subject inside the house was potentially suicidal and might be armed with a knife. 736 F.3d at
1227. The officers encountered the subject and requested he show them his hands. Id. The subject, about

App. 23
eight feet away from the officers, took one or two steps
towards them, raising his hands to shoulder level, revealing a large knife pointed tip down in his right
hand. Id. at 1228. The officers immediately drew their
guns and fired two shots each at the subject, while he
stood about six to eight feet away. Id. The Ninth Circuit
reversed the district court, holding the officers’ use of
force was not objectively reasonable as a matter of law
as the decedent was “complying with [the officer’s] order when he raised the knife and posed no clear threat
at the time he was shot without a warning.” Id. at 1235.
While not completely analogous to the present facts,
these cases support the principle that using deadly
force on a non-threatening suspect in [sic] unlawful.
Decedent may have initially raised a knife towards
Vizcarra, but if Decedent never or no longer posed a
threat, the use of deadly force violated clearly established law. Accordingly, Defendants are not entitled to
qualified immunity. The Court DENIES the Motion for
Plaintiffs’ claim for excessive force.
B. Unlawful Seizure
1. Constitutional Violation
Plaintiff Ortiz claims Responding Officers deprived Decedent of his “right to be free from unlawful
seizures.” (FAC ¶ 24.) The Fourth Amendment guarantees “[t]he right of the people to be secure in their persons, houses, papers, and effects, against unreasonable
searches and seizures.” U.S. Const. amend. IV. Under
the Fourth Amendment, a seizure of a person occurs

App. 24
when the officer, “by means of physical force or show of
authority has in some way restrained the liberty of a
citizen.” United States v. Orman, 486 F.3d 1170, 1175
(9th Cir. 2007).
The use of deadly force is a “seizure” subject to
Fourth Amendment inquiry. Tennessee v. Garner, 471
U.S. 1, 7 (1985). The objective reasonableness inquiry
is determined by an assessment of the totality of circumstances. Graham v. Connor, 490 U.S. 386, 397
(1989). In determining the reasonableness of the seizure, the court must balance “the nature of quality of
the intrusion on the individual’s Fourth Amendment
interests against the importance of the governmental
interests alleged to justify the intrusion.” Scott v. Harris, 550 U.S. 372, 383 (2007).
Pursuant to the analysis above regarding the excessive force claim, genuine disputes of material facts
remain as to the reasonableness of Responding Officers’ use of deadly force. A reasonable jury could conclude Vizcarra’s use of deadly force constituted an
unreasonable seizure.
2. Clearly Established Law
As noted above, Responding Officers are not entitled to qualified immunity, particularly if under the totality of circumstances a jury finds Decedent was not
actively evading arrest, received inadequate warnings,
and did not pose an immediate threat to Responding
Officers. Accordingly, the Court DENIES the Motion
for this claim.

App. 25
C. Wrongful Death
Plaintiffs’ third cause of action is a separate
§ 1983 claim for wrongful death alleging violations of
Decedent’s Fourth and Fourteenth Amendment rights.
(FAC ¶ 31.) To the extent Plaintiffs bring a state law
wrongful death claim, this is not permitted under
§ 1983. A valid § 1983 claim must allege a violation of
a right secured by the Constitution and federal laws.
Wyatt, 504 U.S. at 162. Wrongful death actions brought
under § 1983 are construed and analyzed as excessive
force claims under the Fourth Amendment or substantive due process claims under the Fourteenth Amendment. See, e.g., Arce v. Blackwell, 294 Fed. App’x 259
(9th Cir. 2008) (analyzing the § 1983 wrongful death
claim under the Fourth Amendment); Smith v. City of
Fontana, 818 F.2d 1411, 1416-17 (9th Cir. 1987) (analyzing the survivor action under the Fourteenth
Amendment).
Plaintiffs’ second and fourth claims are for excessive force under the Fourth Amendment and violation
of the familial relationship under the Fourteenth
Amendment. Therefore, Plaintiffs’ third cause of action
is duplicative of these other claims, and cannot be
maintained as a separate, federal cause of action. See
Estate of Lopez ex rel. Lopez v. Torres, 105 F. Supp. 3d
1148, 1159 (S.D. Cal. 2015) (holding plaintiffs’ § 1983
claim for wrongful death could only proceed as an excessive force claim under the Fourth Amendment, not
as an independent cause of action). Accordingly, the
Court GRANTS the Motion as to Plaintiffs’ third cause
of action.

App. 26
D. Familial Relationship
1. Constitutional Violation
Plaintiffs’ fourth cause of action asserts a violation
of the Fourteenth Amendment’s substantive due process for the state interference with their relationships
with Decedent, their husband and son, respectively.
(FAC ¶¶ 33, 34.) In Kelson v. City of Springfield, 767
F.2d 651, 655 (9th Cir. 1985), the Ninth Circuit held “a
parent has a constitutionally protected liberty interest
in the companionship and society of his or her child.” A
violation of the right to family integrity is subject to
remedy under § 1983. Id. The Ninth Circuit has extended that right to the widow of a decedent. Smith v.
City of Fontana, 818 F.2d 1411, 1417 (9th Cir. 1987),
overruled on other grounds by Hodgers-Durgin v. De
La Vina, 199 F.3d 1037 (9th Cir. 1999). In Smith, the
court recognized the spouse and children of a man
killed by police officers could state a substantive due
process claim under § 1983. Id.
To amount to a violation of substantive due process, however, the harmful conduct must “shock [ ] the
conscience” or “offend the community’s sense of fair
play and decency.” Rosenbaum v. Washoe Cty., 663 F.3d
1071, 1079 (9th Cir. 2011) (quoting Rochin v. California, 342 U.S. 165, 172-73 (1952)). Where the officer had
time for actual deliberation, a plaintiff must show the
officer “acted with deliberate indifference.” Porter v.
Osborn, 546 F.3d 1131, 1137-138 (9th Cir. 2008). Otherwise, if the officer “faced an evolving set of circumstances that took place over a short time period

App. 27
necessitation [sic] ‘fast action,’ ” a plaintiff must make
a higher showing that the officer “acted with a purpose
to harm.” Id.
Courts have applied the higher “purpose to harm”
standard in situations concerning fast-paced circumstances and “split-second” decision-making. See, e.g.,
Id. at 1139 (applying the purpose to harm standard to
a five minute encounter between police officers and the
decedent after the officers were dispatched to investigate a suspicious car); Onossian v. Block, 175 F.3d
1169, 1171 (9th Cir. 1999) (applying the purpose to
harm standard when bystanders were injured in a
high speed chase); Moreland v. Las Vegas Metro. Police
Dep’t, 159 F.3d 365, 372 (9th Cir. 1998) (applying the
purpose to harm standard when police officers responded to a gun fight in a crowded parking lot).
On the opposite end of the spectrum, courts have
applied the deliberate indifference standard to cases
where officers have extended time to correct their actions. See, e.g., Whitley v. Albers, 475 U.S. 312, 320
(1986) (applying deliberate indifference standard to
custodial prison conditions); Lee v. City of Los Angeles,
250 F.3d 668, 684 (9th Cir. 2001) (applying deliberate
indifference standard to a wrongful incarceration); Estate of Lopez ex rel. Lopez v. Torres, 105 F. Supp. 3d
1148, 1161 (S.D. Cal. 2015) (applying deliberate indifference standard because roughly five hours elapsed
between initial call to the police and when an officer
shot the decedent).

App. 28
Here, fewer than two minutes elapsed between the
time Responding Officers entered the apartment and
Vizcarra shooting Decedent. This fast-paced situation
necessitates Plaintiffs make the higher showing that
Responding Officers acted with purposes to harm. Under the purpose to harm standard, the officers must
have acted with the purpose to “cause harm unrelated
to the legitimate object of arrest.” Porter, 546 F.3d at
1140. Conduct that is meant only to “teach [a suspect]
a lesson” or “get even” or where the officer “intended to
harm, terrorize or kill” the suspect would not be
shielded from liability. Id. at 1140-141. Conversely,
where officers are responding to an emergency, their
conduct is likely shielded. Id. at 1141. In Zion, 874 F.3d
at 1077, the court applied the purpose to harm standard and found the officer the officer [sic] did not violate
the Fourteenth Amendment by firing two volleys of
nine gunshots each at the suspect, the second volley
when the suspect lay on the ground, because they came
in rapid succession, without time for reflection and
served the legitimate purpose of stopping a dangerous
suspect.
Plaintiffs argue Vizcarra’s intent to harm Decedent was apparent because Decedent was seated on
the ground with a knife held downwards, then shot
again while on his back with empty hands. (Opp’n at
17.) However, the time between Decedent starting to
raise the knife and the second shot was less than three
seconds. Vizcarra was forced to make split-second decisions to respond to Decedent’s movements. No intent
to harm separate from a legitimate law enforcement

App. 29
objective to protect himself and others is evidenced by
the record. Moreover, split-second judgments need not
be scrutinized as closely for how officers decide to best
minimize the risk to their own safety and the safety of
others. Wilkinson v. Torres, 610 F.3d 546, 554 (9th Cir.
2010). Since the Court finds there is no constitutional
violation, the Court need not determine whether Responding Officers are entitled to qualified immunity.
Accordingly, the Court GRANTS the Motion as to this
claim.
E. Municipal Liability
Under Monell v. Dep’t of Soc. Servs., 436 U.S. 658,
690-91 (1978), municipalities cannot be sued under a
theory of respondeat superior for injuries inflicted by
its employees or agents. Rather, municipalities are
subject to damages under § 1983 in three situations:
when the plaintiff was injured pursuant to an expressly adopted official policy, a long-standing practice
or custom, or the decision of a final policymaker. Ellins
v. City of Sierra Madre, 710 F.3d 1049, 1066 (9th Cir.
2013) (citing Delia v. City of Rialto, 621 F.3d 1069,
1081-82 (9th Cir. 2010)). “In limited circumstances,”
the failure to train municipal employees can serve as
a policy underlying a Monell claim. Bd. of the Cty.
Comm’rs v. Brown, 520 U.S. 397, 407 (1997).
Plaintiff Ortiz claims Rialto has a custom, policy,
and/or practice in using excessive force. (FAC ¶ 45.) To
allege Monell liability based on “custom” or “practice,”
liability “may not be predicated on isolated or sporadic

App. 30
incidents; it must be founded upon practices of sufficient duration, frequency and consistency that the conduct has become a traditional method of carrying out
policy.” Trevino v. Gates, 99 F.3d 911, 918 (9th Cir.
1996).
Plaintiffs have failed to provide any evidence of
additional instances in which Rialto police used excessive force. One (arguable) instance of excessive force is
insufficient to sustain Monell liability. Id.
Ortiz also asserts a failure to train claim for Rialto’s training in the use of Tasers and deadly force and
that Rialto failed to adequately discipline Responding
Officers. (FAC ¶ 45.) “Only where a municipality’s failure to train its employees in a relevant respect evidences a ‘deliberate indifference’ to the rights of its
[officers] can such a shortcoming be properly thought
of as a city ‘policy or custom’ that is actionable under
§1983.” City of Canton v. Harris, 489 U.S. 378, 399
(1989). A plaintiff alleging a failure to train claim must
show: (1) she was deprived of a constitutional right, (2)
the [City] had a training policy that amounts to deliberate indifference to the constitutional rights of the
persons with whom its [officers] are likely to come into
contact, and (3) her constitutional injury would have
been avoided had the [City] properly trained those [officers].” Blankenhorn v. City of Orange, 485 F.3d 483,
484 (9th Cir. 2007).
The undisputed facts establish Rialto police officers are trained they may go hands-on with a suspect
during a Taser cycle and they should not hold a Taser

App. 31
and gun at the same time. Plaintiffs argue Brambila
violated these training policies by not going hands-on
with Decedent during the Taser cycles and by holding
his Taser and gun simultaneously, and because Vizcarra claimed they were trained to avoid going handson during the Taser cycle. (Opp’n at 21.) Even so,
Brambila’s violation of proper Taser procedures, and/or
Vizcarra’s claim of the training he received, is insufficient to establish Rialto had a custom or policy of training police officers incorrectly. See Canton, 489 U.S. at
390 (“That a particular officer may be unsatisfactorily
trained will not alone suffice to fasten liability on the
city.”); Meehan v. Los Angeles Cty., 856 F.2d 102, 104
(9th Cir. 1988) (two incidents of unconstitutional assaults by officers insufficient to establish a custom).
Moreover, Plaintiffs have failed to provide evidence
that Rialto made a “deliberate” or “conscious” choice in
allegedly failing to train police officers that they can go
hands-on with a suspect during a Taser cycle. Canton,
489 U.S. at 389. Accordingly, the Court GRANTS the
Motion as to Plaintiff ’s Monell claim.
V.

STATE LAW CLAIMS

Plaintiffs allege six causes of action pursuant to
California law. The Court considers each in turn.
A. California Code of Civil Procedure § 377
Plaintiffs assert a wrongful death claim under
California Code of Civil Procedure § 377 against Defendants. The elements of a wrongful death claim are:

App. 32
(1) a wrongful act or neglect on the part of one or more
persons, (2) the resulting death of another person, and
(3) pecuniary losses suffered by the heirs.” Quiroz v.
Seventh Ave. Ctr., 140 Cal. App. 4th 1256, 1264 (2006).
As Plaintiffs’ claim is premised on Defendants’ negligence, to support their claim for wrongful death
against Defendants, Plaintiffs must establish the
standard elements of negligence. Bremer v. Cty. of Contra Costa, 2015 WL 5158488, at *5 (N.D. Cal. Sep. 2,
2015) (citing Hayes v. Cty. of San Diego, 736 F.3d 1223,
1231 (9th Cir. 2013)).
A cause of action for negligence requires a plaintiff
show: (1) the defendant owed a duty of care, (2) the defendant breached that duty, and (3) the breach was the
proximate or legal cause of plaintiff ’s injury. Sheley v.
Harrop, 9 Cal. App. 5th 1147, 1174 (2017). The California Supreme Court has encouraged courts to determine whether a duty of care exists before considering
immunity. Williams v. State of Cal., 34 Cal. 3d 18, 2223 (1983).
Officers have a duty to act reasonably when using
deadly force. Hayes, 57 Cal. 4th at 629. The reasonableness of an officer’s conduct is determined in light of
the totality of circumstances. Id. In California, state
negligence law, when considering the use of deadly
force, “is broader than federal Fourth Amendment law.”
Id. at 639. Law enforcement personnel have a “degree
of discretion” in choosing how to address a particular
situation. Id. at 632. Thus, an officer’s conduct need
only “fall[ ] within the range of conduct that is reasonable under the circumstances” to avoid liability for

App. 33
negligence. Id. Summary judgment is appropriate
when, viewing the facts most favorably to the plaintiff,
“no reasonable juror could find negligence.” Id.
The Court has already determined Responding Officers were not entitled to summary judgment on the
reasonableness of their conduct, as a reasonable jury
could determine excessive force was used on Decedent.
As California’s negligence law is “broader” than federal
Fourth Amendment law, summary judgment is inappropriate here, where a reasonable jury could find Responding Officers acted negligently. Accordingly, the
Court DENIES the Motion for Plaintiffs’ wrongful
death claim.
B. Battery (Wrongful Death)
Plaintiff Ortiz asserts Responding Officers conduct constituted battery upon Decedent. (FAC ¶ 58.)
Under California law, officers are explicitly permitted
to use reasonable force to effect an arrest, prevent escape, or overcome the resistance of a person being arrested. Cal. Penal Code § 835(a). Thus, to prevail on a
claim of battery against a police officer, the plaintiff
bears the burden of providing [sic] the officer used unreasonable force. Munoz v. City of Union City, 120 Cal.
App. 4th 1077, 1102 (2004). Battery claims under California law are analyzed under the same reasonableness standard of the Fourth Amendment. Brown v.
Ransweiler, 171 Cal. App. 4th 516, 527 (2009).
As noted above, the Court finds genuine issues of
material fact as to the reasonableness of Responding

App. 34
Officers’ use of force against Decedent. Accordingly, Defendants are not entitled to summary judgment. The
Court DENIES the Motion as to this claim.
C. California Civil Code § 52.1
Plaintiff Ortiz alleges Defendants violated Decedent’s civil rights guaranteed under federal laws,
the California Constitution, and California laws, in violation of California Civil Code 52.1(b). (FAC ¶ 65.)
California Civil Code Section 52.1, the Bane Act, authorizes a claim for relief “against anyone who interferes, or tries to do so, by threats, intimidation, or
coercion, with an individual’s exercise or enjoyment of
rights secured by federal or state law.” Sahymus v. Tulare Cty., 2015 WL 3466942, at *6 (E.D. Cal. June 1,
2015) (quoting Jones v. Kmart Corp., 17 Cal. 4th 329,
331 (1998)). The Ninth Circuit has agreed the elements
of an excessive force claim under § 1983 establish the
elements of a Bane Act claim. Chaudhry v. City of Los
Angeles, 751 F.3d 1096, 1106 (9th Cir. 2014.)
Plaintiffs have established genuine issues of material fact as to the reasonableness of Responding Officers’ use of deadly force against Decedent. Thus, a
reasonable jury could conclude excessive force was
used and find in Plaintiff ’s favor for the Bane Act
claim. The Court DENIES the Motion as to this claim.

App. 35
D. California Civil Code § 51.7
Plaintiff Ortiz also asserts Responding Officers violated Decedent’s rights under California Civil Code
§ 51.7 because of his race. (FAC ¶ 72.) California Civil
Code Section 51.7 guarantees the “right to be free from
any violence, or intimidation by threat of violence”
committed against their person or property because of
their political affiliation, position in a labor dispute,
sex, race, color, religion, ancestry, national origin, disability, medical condition, genetic information, marital
status, sexual orientation, citizenship, primary language, or immigration status, or the perception of
these characteristics. Cal. Civ. Code §§ 51.7, 51(b). To
show a violation of § 51.7, a plaintiff must establish (1)
the defendant threatened or committed violent acts
against the plaintiff, (2) the defendant was motivated
by his perception of plaintiff ’s protected characteristic,
(3) the plaintiff was harmed, and (4) the defendant’s
conduct was a substantial factor in causing the plaintiff ’s harm. I.H. by & through Hunter v. Oakland
School for Arts, 234 F. Supp. 3d 987, 995 (N.D. Cal.
2017).
Plaintiffs do not even argue this claim in their Opposition, and have failed to present any evidence to establish either Brambila or Vizcarra was motivated by
his perception of Decedent’s protected characteristic.
Consequently, the Court GRANTS the Motion for
Plaintiff ’s claim under California Civil Code § 51.7.

App. 36
E. Intentional Infliction of Emotional Distress
(IIED)
Plaintiffs’ tenth claim for relief is for intentional
infliction of emotional distress against Responding Officers. (FAC ¶ 76.) To support a claim for IIED, a plaintiff must show: (1) extreme and outrageous conduct by
the defendant with the intention of causing, or reckless
disregard of the probability of causing, emotional distress, (2) the plaintiff ’s suffering severe or extreme
emotional distress, and (3) actual and proximate causation of the emotional distress by the defendant’s outrageous conduct. Potter v. Firestone Tire & Rubber Co.,
6 Cal. 4th 965, 1001 (1993). Conduct is “outrageous” if
it is “so extreme as to exceed all bounds of that usually
tolerated in a civilized community.” Id. Whether a defendant’s conduct rises to the level of extreme and outrageous is ordinarily a question for a jury, therefore a
court may grant summary judgment only if no reasonable jury could find the conduct to have been so extreme and outrageous as to warrant recovery. Quyen
Kim Dang v. City of Garden Grove, 2011 WL 3419609,
at *12 (C.D. Cal. Aug. 2, 2011).
Plaintiffs fail to oppose the Motion for their IIED
claim. Although the Court found, genuine issues of material fact remain regarding the reasonableness of Responding Officers’ use of force, the Court also
concluded there was no evidence Responding Officers
acted with the intent to harm Decedent outside of a
legitimate law enforcement objective. Moreover, there
is no evidence Responding Officers acted with reckless
disregard to causing emotional distress. Therefore, the

App. 37
Motion is GRANTED with respect to Plaintiffs’ IIED
claim.
F. Negligent Infliction of Emotional Distress
Plaintiff Ortiz asserts Responding Officers negligently inflicted emotional distress upon her when they
used excessive force on Decedent. (FAC ¶ 78.) To recover for negligent infliction of emotional distress as a
bystander, a plaintiff must prove she “(1) is closely related to the injury victim; (2) is present at the scene of
the injury-producing event at the time it occurs and is
then aware that it is causing injury to the victim; and
(3) as a result suffers serious emotional distress.” Ra v.
Super. Ct., 154 Cal. App. 4th 142, 148 (2007).
The undisputed facts establish Ortiz, Decedent’s
surviving spouse, was just behind the threshold of the
door during part of the encounter, before going downstairs. She heard one or two of the gunshots, and later
saw his body being taken away. In light of these facts,
a reasonable jury could conclude Plaintiffs have proven
the elements of this claim. Accordingly, the Court DENIES the Motion as to this claim.
G. Municipal Liability for Plaintiffs’ State Law
Claims
Pursuant to California Government Code § 815.2,
a public entity is “liable for injury proximately caused
by an act or omission of an employee of the public entity within the scope of his employment if the act or

App. 38
omission would, apart from this section, have given
rise to a cause of action against that employee or his
personal representative.” Cal. Gov’t § 815.2. This provision allows for vicarious liability of a public entity for
the unlawful conduct of its police officers. Blankenhorn, 485 F.3d at 488. Therefore, Plaintiffs’ California
law claims that remain may also be pursued against
Rialto.
VI.

CONCLUSION

Based on the foregoing, the Court GRANTS in part
and DENIES in part Defendants’ Motion for summary
judgment. The Court GRANTS the Motion as to the following causes of action:
(1) § 1983 Wrongful Death
(2) § 1983 Fourteenth Amendment Due Process
(3) Monell liability
(4) California Civil Code §51.7
(5) Intentional Infliction of Emotional Distress.
The Court DENIES the Motion as to these claims:
(1) § 1983 Fourth Amendment Excessive
Force
(2) § 1983 Fourth Amendment Unlawful Seizure

App. 39
(3) Wrongful Death under California Code of
Civil Procedure § 377
(4) Battery
(5) California Civil Code § 52.1
(6) Negligent Infliction of Emotional Distress.
IT IS SO ORDERED.

App. 40
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MONICA ORTIZ, individually and as co-successor-ininterest to Decedent Christian
Pena; NORMA PENA,
individually,
Plaintiffs-Appellees,
v.

No. 18-55107
D.C. No.
5:16-cv-01384-JGB-KS
Central District of
California, Riverside
ORDER
(Filed Aug. 12, 2019)

CESAR VIZCARRA, individually, and in his official capacity as an officer for the City
of Rialto Police Department;
JORGE BRAMBILA,
individually, and in his
official capacity as an officer
for the City of Rialto Police
Department,
Defendants-Appellants,
and
CITY OF RIALTO, Police
Department; DOES, 1-10,
inclusive, individually, and
in their capacities as law
enforcement agents and/ or
personnel for the City of
Rialto Police Department,
Defendants.

App. 41
Before: FERNANDEZ, WARDLAW, and BYBEE, Circuit Judges.
Judges Fernandez, Wardlaw, and Bybee vote to
deny the petition for panel rehearing. Judges Wardlaw
and Bybee vote to deny the petition for rehearing en
banc, and Judge Fernandez so recommends.
The full court has been advised of the petition for
rehearing en banc, and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petition for panel rehearing and rehearing en
banc is therefore DENIED.

App. 42
EXHIBIT 1 – FRAME #6

Pena lunges at Officer Vizcarra with knife rising in left hand.

